                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

 Case Number: 1-07010002                                                                      Page 1 of 1



                 We initiated an investigation based on anonymous allegations that a ~rofessor'at a
         universitfl had misused NSF grant funds by submitting extravagant travel reimbursements and
         questionable supply expenses. The professor was Principal Investigator (PI) and Co-PI on two
         NSF grant^.^ Detailed review by OIG Agents and university auditors found that many of the
         travel and supply expenses submitted by the professor were questionable as unreasonable,
         unallowable, or possibly false. Approximately $3000 in supply purchases, many while the
         professor was on travel, appeared to be personal in nature.

                 The professor agreed to a voluntary interview and provided a sworn statement to OIG
         admitting that she submitted receipts for non-grant purposes (totaling $3000.00). However, the
         professor added that, when these questionable receipts were submitted, the professor was
         experiencing difficult personal issues. The professor also stated that she often submitted receipts
         and travel vouchers weeks after her return from travel and would often guess at the nature of the
         receipts since she could not recall the actual expenses for the receipts. The professor continued
         to cooperate with the investigation to clarifjr questionable expenses.

                 The university reviewed over $2 million in grant funds and found that over a five year
         period, $283,488 was wrongfully charged to the NSF grants, mostly as unreasonable expenses
         (excessive travel and stipends, andlor late receipts) that would not support charges to a federal
         grant. The university also determined that many of these unallowable expenses occurred because
         administrators at the professor's department were concerned for the professor's well being,
         which resulted in less than stringent supervision of grant funds. The university returned the
         $283,488 to NSF. The professor had taken a leave of absence from the university prior to our
         investigation, then resigned from the university during the investigation. The U.S. Attorney's
         Office declined prosecution.

                  We found that the Professor submitted excessive and unreasonable expense claims
         against NSF grants, in many cases, misrepresenting the expense claims as a result of grossly
         negligent behavior. We recommended that NSF take administrative action to limit the financial
         responsibilities that the Professor may have on future NSF grants.4 NSF declined to take action
         based on the fact that the Professor is no longer associated with the university and is not currently
         affiliated with another grantee as key personnel on NSF grants.




          4
              See attached Investigation Report (OIG Case No. 107010002)

                                                     /




NSF OIG Form 2 (1 1/02)
    'National Science Foundation
     Office of Inspector General




                                Confidential
                 Investigation Report
               Case Number 1-07010002



This Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside
                                                                                 s$
   NSF only by OIG under the Freedoin of Infot~llationand P~ivacyActs, 5 U.S.C 552, 552%
                                 Executive Summary


Allegation        Misuse of NSF grant funds for unreasonable and unallowable expenses.

Subject           The subject' was a Professor at the College of Education at the
                  university and the Principal Investigator (PI) on an NSF Career     ward^
                  and Co-PI on another ward.^

OIG       '



Investigation     OIG worked with the University's Internal Auditors to review over $2
                  million in grant expenditures charged to the two awards. We found a
                  pattern of excessive expenses and several receipts for personal expenses
                  that had been mislabeled and submitted as legitimate expenses. The
                  Subject provided a sworn statement to OIG admitting that she submitted
                  receipts for non-grant purposes totaling about $3,000.00, but claimed that
                  the behavior resulted from careless processing of receipts during a time of
                  personal difficulties.
University
Assessment        The University Audit determined that $283,488 of the costs were
                  unreasonable and unallowable. The University returned the funds to NSF.

DOJ
Assessment        The Assistant Unitid States Attorney declined prosecution based on the
                  burden to prove beyond a reasonable doubt that the 'Subject knowingly and
                  willing submitted false claims to NSF grants.
OIG
Assessment        The Subject submitted excessive and unreasonable expense claims against
                  NSF grant funds, misrepresenting the expense claims as a result of grossly
                  negligent behavior. The Subject submitted multiple false and excessive
                  claims over a period of several years, representing a pattern.
OIG
Recommendations   Based upon the facts described herein, OIG recommends that NSF take
                  administrative action to limit the financial responsibilities that the Subject
                  may have on future NSF grants.
I.      OIG MVESTIGATION

        A.       Factual Background:


        We initiated an investigation based on anonymous allegations involving the misuse of
grant funds fiom two NSF grants. The allegations stated that the Subject had misused NSF
grant funds by paying friends5and relatives for services under the award, and by submitting
extravagant travel reimbursements.

        The university Internal Audit Department agreed to assist us in resolving these
allegations and retrieved information involving the Subject and costs charged to the NSF grants
that related to the allegations. Initial review found that:

        The Subject charged $179,384.74 in travel expenses, mostly t        o       , where the
        Subject was working with a School District as part of her research supported by the two
        NSF grants.
        A large amount of the travel expenses submitted by the Subject appeared questionable as
        unreasonable, unallowable and excessive.
        The Subject may have overpaid teachers at the School District.
        The Subject paid her niece $10,000 for transcription services and website
        development/programming. The Subject also paid her niece $4,775 for setting up a
        wireless office in another city and for CD-based resources.
        Travel expenses for persons believed to be friends and relatives were charged to the NSF
        grants.
        In 2006, the Subject took a leave of absence from the university and moved to .         6


       A detailed review by the University Auditors was initiated and focused on the two NSF
grants. The University Auditors concluded that a large amount of the travel and some of the
supply purchases lacked documentation and appeared to be excessive and unreasonable.

       O              n             , the Subject was interviewed by OIG and representatives of
the University. The Subject voluntarily provided a sworn statement to OIG admittin that she
submitted receipts for non-grant purposes. However, she added that between
when these uestionable receipts were submitted, her husband was ill, and then died in
                                                                                            h?
d                . The Subject stated that she was taking medication for depression and seeing a
psychiatrist during this time period. She also stated that she o f en submitted receipts and travel
vouchers weeks after her return from travel and would often guess at the nature of the purchases
since she could not recall the actual expenses for some receipts. (See Attachment 1) The


      The allegation stated that one teacher involved in the grant was a close personal friend of the Subject.
Progress reports submitted to NSF stated that this teacher had published as part of the research funded by NSF and
made                at conferences with the Subject.
    6 The Subject resigned from the university effective. -
Subject also voluntarily provided bank statements which revealed no other evidence of misuse of
grant funds or questionable expense reimbursements.                                                  ~
        O          n         , the University provided a letter to OIG stating that it intended to
return $283,488for questionable charges to the two NSF grants. (See Attachment 2) Most of
these charges lacked adequate documentation or were unreasonable, such as excessive travel or
late receipts. Below is a summary:

        Stipends

       The highest amount returned was for payments to              teachers. The University
looked at payments to teachers in other locations and determined that the Co-PI had set a
                      all participants, which was much lower than what the Subject had paid
teachers in           The University also concluded that the Subject had no standard method for
payments to           teachers. Some payments to            teachers were paid as honoraria
payments while other payments were processed as Participant Support payments. While the
teachers paid with NSF grant funds did participate in the pro'ects, the documentation submitted
by the Subject did not support the higher payments to the  1         teachers. Based on the
inconsistencies, the Universit used the standard of payment set by the Co-PI, and disallowed all
payments above that to            teachers.

        Computer Purchases

        The University returned funds for computers that the Subject had bought and then
provided to teachers in         and to her niece. This also includes a laptop computer that
Subject subsequently lost. The University stated that the computers should be returned to the
University to be used by researchers and graduate students. The Subject stated that she would
rather pay for the computers than ask for their return. The University decided that these
computers should not be charged to the NSF grants.

    - Travel
       The University reviewed travel and meeting expenses and concluded that excessive and
questionable expenses would be returned to NSF. This included valet parking at the airports,
much higher than long-term parking; hotel rates much higher than seasonable rates or where the
graduate students stayed; and meals purchased for others while the Subject was on travel without
documenting the purpose of the "working" meals.

        Payments to Niece


website for the =
        The Subject did receive prior approval by the University to use her niece to develop a
                        project. However, there was no agreement between the University and
the niece, and the Subject did not document the work completed and why only her niece could
perform the work. The Subject did submit docume~ltationafter the investigation began,
however, the University decided that the submission was not timely and the costs should not be
charged to the NSF grant. The Subject also paid the niece to set up the Subject's ho~lleoffice in
        after she left the University. The home office costs are not allowable expenses and the
University decided that it should not be charged to the NSF grants.

          Unsubstantiated and Old Recei~ts

        These charges include the questionable receipts for non-grant purposes (totaling about
$3,000.00) that the Subject admitted were wrongfully iiubmitted. They also included duplicate -
receipts (one credit card and one purchase receipt) submitted by the Subject for $150. However,
these receipts were submitted 6 month apart and she explained that the charges were accidental.
The Subject often submitted receipts that were over 6 months old and did not clearly document
the reason for the purchase. The University decided that any receipt that was submitted 6
months after the purchase would not be charged to NSF grants. Other miscellaneous
unallowable charges included expenses for general supplies and other costs that should have
been processed as indirect costs.

        The University determined that many of these unallowable expenses occurred because
administrators in the Department were concerned for the Subject's well being, which resulted in
less than stringent supervision of grant funds.

          B.        Subiect's Response to Allegations:

         Throughout this investigation, the Subject cooperated fully and provided a statement
under oath, stating, "I did not intend to submit non-grant related purchases on my travel and
expense vouchers. I now see that I did not keep good notes on these expenses and would often
try to recall or make a guess to the nature of the receipts. . . . I am deeply sorry, and sadden, [sic]
by the mistakes that I made with these questionable receipts. I now want to correct these errors
and pay for these questionable expenses." (See Attachment 1)

          C.         Department of Justice Assessment:

      OIG concluded that the Subject submitted $3,000.00 in receipts for non-grant purposes,
and received payments fiom NSF grant funds based on receipts which wrongfully stated the
nature of the purchases. We believed that Subject may have violated criminal statutes7and we
referred the matter to the United States Attorney's Office for review. After consideration of the
evidence, this matter was declined for criminal prosecution based on the burden to prove beyond
a reasonable doubt that the Subject knowingly and willing submitted false claims to NSF grants.8
(See Attachment 3)




    7
        18 U.S.C.   5 287, False Claims.
    8
       D.     University's Actions:

        The University worked with OIG to review the allegations and to review all expenditures
charged to the two NSF grants. As a result of this review, the University returned $283,488
(including indirect costs) to NSF. The University concluded that the Subject's behavior was the
result of personal difficulties that she experienced prior to and following the death of her
husband. Colleagues and administrators were aware of her personal problems and their concern
for her well-being contributed to less than stringent supervision of her grants. The University
implemented corrective measures and additional training to address procedural weaknesses
identified during this review. (See Attachment 2)

11.    OIG ASSESSMENT

       A.     Circumstances of the case:

               1.     Subiect's Actions:

               Between 2003 and 2006, the Subject submitted multiple claims for
reimbursements for grant funds. Many of these claims were excessive and wrongfully stated that
receipts were for grant related purchases.

              2.      Subiect's Intent:

               As discussed above, when the questionable receipts were submitted, the Subject
was experiencing personal difficulties. While the Subject may not have intended to submit false
claims, she allowed her personal problems to affect the reasonableness of her actions and
displayed a pattern of submitting excessive expense reports and receipts that wrongfully stated
that purchases were related to grant activities.

               We believe the Subject's actions were grossly negligent, but we also believe that
her actions were largely due to her unfortunate circumstances. Thus, while the Subject's conduct
is serious and warrants an appropriate response, we do not believe these facts present a
meritorious civil False Claims Act case.

               3.     Cooperation of the Subject

               During the investigation, the Subject fully cooperated with the investigation, by
agreeing to a voluntary interview and providing a sworn statement. The Subject also voluntarily
provided records, including personal bank records, which helped resolve outstanding issues.
                    4.    Position Held bv Subject

               At the time the wrongdoing was committed, the Subject was the Principal
Investigator (PI) on an NSF award and Co-PI on another NSF award.

                    5.    Organizational Action

               The Subject resigned from the University effective. -
However, the Subject continues to work with the University to resolve this matter and has agreed
                                                                                           -
to repay questionable expenditures.

        B.      .   Restrictions on financial responsibility and reprimand:
                                                                                                     I



       NSF grants are expenditures of federal appropriations, to which both Congress and N S F
may attach conditions when judged necessary and proper to the effective use of such funds.9
NSF's pre-award assessment,of grantee responsibility is a critical point for the assessment of
need for such conditions, based on all available information including relevant past history.
Guidance from the Office of Management and Budget (OMB) allows NSF to classify members
of two classes of prospective grantees (state, local and Indian governments, and educational,
hospital and non-profit institutions) as "high risk" or otherwise problematic grantees for which
special award conditions may be imposed as part of awards.'' In the course of promulgating
internal administrative rules, NSF has also identified other circumstances during pre-award
processing where special handling occurs and where special conditions may result." Notably,
individual PIS are the focus in some of these circumstances, signifying that NSF can, in
appropriate cases, assign a higher-than-normal risk to proposals and awards based on their
association with individual PIS, review them more carefully, and apply special conditions as
judged appropriate.

       Thus, NSF may evaluate the past conduct and responsibility of either institutions or
individuals in the course of determining fitness for an award, and impose special conditions as a
means of dealing with any risks identified in the evaluation. NSF has the technical means to
enable it to continue to monitor individuals for whom it has already identified risk factors based
on past conduct, by flagging identifiers of PIS of interest and diverting proposals containing

    9
       New York v. Unitedstates, 505 U.S. 144 (1992); U.S. ~ o v e r n m e nAccountability
                                                                            t               Office, Principles of
Federal Appropriations Law (3d Ed., February 2006), Chapter 10, sec. C.3.
     'O 2 C.F.R. 5 215.14 (educational, hospital and non-profit institutions);.45 C.F.R. 4 602.12 (state, local and
Indian tribal governments). In both cases a history of unsatisfactory performance, financial instability, inadequate
managenlent systems, previous award noncompliance, or other lack of responsibility will justify special conditions,
and in both cases grantees are given separate notice of the special conditions imposed, the reasons for them, and
possible corrective actions. Special award conditions can include payment on a reimbursement basis; making
authority to proceed to a subsequent phase contingent on proof of satisfactory performance on prior phases,
requiring additional or more detailed financial reports, conducting additional project monitoring, requiring the
grantee to obtain, technical or management assistance, or establishing additional prior approvals (45 C:F.R.
Q: 602.12(b)).
     II
        See NSF Proposal and Award Policies and Procedures Guide, Part I (Grant Proposal Guide) (January 2008),
sec. I.E.S'(special requirements for unaffiliaied individuals who submit proposals), and NSF Proposal and Award
Manual (July 2008), sec. VI.K.3.b (regarding special conditions for awards to new awardees) and sec. lV.D
(regarding proposals from National Science Board metnbers or former, current or prospective NSF staff members):
    those flagged identifiers for special handling during pre-award processing.12 We believe NSF
    may appropriately apply these special measures in the case of individuals whose past
    questionable conduct, while significant, does not qualify for suspension or debarment, and who
    may again seek NSF funds on their own or in association with institutions or business entities.
    We also believe that NSF can make these risk assessments and flagging decisions, and apply
    special conditions, on a case-by-case basis to deal with circumstances that are not squarely
    within existing guidance. For example, the Subject in this case is technically affiliated with an
    institution,13but any proposal she submits through that or another institution should nonetheless
    be treated as if she submitted it as an unaffiliated individual, so that the analytical focus remains
    on the Subject and the risks based on her past conduct.

1   111.        OIG Recommendations

          Consistent with the need to protect the interests of the public and the NSF, we
    recommend that NSF take the following action as a final disposition of this case:

                     Notify the Subject that NSF is taking action to limit the financial responsibilities
                     that the Subject may have on future NSF grants.
                     For a period of two years following its notice to the Subject, flag the Subject's PI
                     identifier in the FastLane proposal system for special handling and use the flag to
                     ensure that, when making new awards in which the Subject is a PI or co-PI,
                     special conditions are imposed that restrict the Subject from exercising
                     independent financial management with respect to the award(s), or that require the
                     Subject to exercise such management jointly with a responsible institutional grant
                     official.




           12
           NSF Proposal and Award Manual (July 2008), sec. 1V.D (regarding flagging of proposals from National
    Science Board members or former, current or prospective NSF staff members).
        13
           The Subject currently has a temporary appointment a             t          , but the conduct at issue
    occurred prior to this appointment and      is probably unaware of it.
